  ,QVSHFWRU *HQHUDO
'HSDUWPHQW RI 'HIHQVH



  Semiannual Report to the Congress
   October 1, 2000 - March 31, 2001
    If you suspect Fraud, Waste, Abuse, or Mismanagement in
         the Department of Defense, please contact us at:
                      Hotline@dodig.osd.mil
                                or
                      www.dodig.osd.mil/hotline
                                or call:
                             800-424-9098




The Hotline is available 24 hours per day. The caller can remain anonymous.
             If you prefer, you may send written complaints to:

                      Office of the Inspector General
                          Department of Defense
                                 Room 929
                           400 Army Navy Drive
                      Arlington, Virginia 22202-4704
                                  FOREWORD




It is a privilege to report on the accomplishments of the Office of the Inspector
General, Department of Defense, for the period October 1, 2000, through March 31,
2001. This Semiannual Report summarizes significant Department-wide audit and
investigative efforts. Oversight projects relating to the intelligence community are
discussed in a separate classified annex. Chapter One contains brief updates on what
we consider to be the Department’s top internal management challenges as identified
by our work. Chapter Two includes discussions of important audit and investigative
efforts that took place during the period, resulting in significant criminal
prosecutions, Defense management improvements, and savings. It is gratifying to be
able to report, for example, that Defense audits identified $2.3 billion in potential
monetary benefits and criminal investigations resulted in $.5 billion of recoveries to
the U.S. Government.

We appreciate the confidence shown in our work by both the Department and the
Congress, as manifested by frequent requests for reviews of important matters,
invitations to participate in hearings, and actions taken on our findings.
Semiannual Report to the Congress                                                                                              Table of Contents




                                              TABLE OF CONTENTS

CHAPTER ONE – DoD MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . . . . . .                                                          1
    Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
    Information Technology Acquisition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        1
    Information System Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  1
    Other Security Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                2
    Financial Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                3
    Acquisition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       3
    Health Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        5
    Supply Inventory Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      6
    Other Infrastructure Issues. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               6
    Readiness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      7
    Human Capital . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          7

CHAPTER TWO - SIGNIFICANT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                             9
    Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       9
    Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              9
    Administrative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 17
    Criminal Investigative Policy and Oversight. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          21
    Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    22
    Intelligence Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           24

APPENDICES
    A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . .                                          A-1
    B. Inspector General, DoD, Audit Reports Issued Containing
       Quantifiable Potential Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            B-1
    C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               C-1
    D. Contract Audit Reports Issued. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      D-1

FIGURES
    1.     Personnel and Workload Changes for General and Industrial Items . . . . . . . . . . . . . . . .                                           8
    2.     Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      10
    3.     Monetary Recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              10
    4.     Nature of Substantiated Allegations Against Senior
           Officials During 1st Half FY 01 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    20
    5.     DoD Total Senior Official Cases - FY 98 - FY 01. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               20
Semiannual Report to the Congress                                                           Chapter One




CHAPTER ONE – DOD MANAGEMENT CHALLENGES

INTRODUCTION                The DoD audit, inspection, and investigation communities help to identify
                            the need for management improvements, facilitate their implementation,
                            and verify their results. During the reporting period, we continued to
                            focus coverage on high risk management areas in support of DoD
                            strategic management improvement goals.

                            In December 2000 correspondence with various congressional leaders and
                            in subsequent hearings, we identified the following 10 areas as posing the
                            biggest challenges.

INFORMATION                 Defense has a poor track record for developing or purchasing information
TECHNOLOGY                  systems efficiently. Yet it depends heavily on thousands of systems to
ACQUISITION                 support almost all activities and spends over $20 billion a year for them.
                            Implementation of sound investment management practices remains a
                            work in progress, despite the passing of 5 years since the Clinger-Cohen
                            Act.

                            Three OIG, DoD, reports during the period described outright program
                            failures involving the Joint Ammunition System, Defense Environmental
                            Security Corporate Information Management Program, and the Defense
                            Security Service Case Control Management System. Other reports
                            addressed improvements needed in the Standard Procurement System,
                            Defense Finance and Accounting Service Corporate Database, and Army
                            Healthcare Enterprise Management System. As shown by those examples,
                            system acquisition problems are occurring across the spectrum of DoD
                            functional areas and organizations.

INFORMATION                 Defense systems are probed daily and frequently attacked systematically
SYSTEM                      by vandals, curiosity seekers, and other individuals with even more
SECURITY                    sinister motives. Security is a major challenge to operators and users of all
                            networked information systems. The DoD has concerns about the security
                            of not only its own systems, but also the networks used to support the
                            private sector infrastructures at home and abroad that sustain our military
                            forces.

                            There has not been a seamless and quick transition from the well focused
                            “Y2K” computer conversion effort to any equally aggressive national
                            information assurance effort. The Government Information Security
                            Reform Act, enacted in November 2000, should be highly useful in
                            forcing an agency like DoD to develop systematic and credible methods

                                                   1
Chapter One                                               Semiannual Report to the Congress




                 for evaluating their system security posture. Planning to comply with the
                 Act’s requirements for the first annual comprehensive assessment report
                 in October 2001 commenced during the period; however, DoD lacks
                 updated policy and will have great difficulty performing comprehensive
                 assessments this year that can be validated by auditors. Nevertheless,
                 important insights will be gained and we plan to address the results as a
                 focus area in the next semiannual report.

                 All of the information assurance audits during the period indicated
                 problems. Vulnerabilities were detected in pay and medical information
                 systems and software design activities. The most robust segment of the
                 Information Assurance Program is intrusion detection and response,
                 although both the Government Accounting Office and OIG, DoD,
                 reported there was need for continued improvement in that area too. In
                 January 2001, DoD established the Law Enforcement and Counter-
                 intelligence Center, which includes a central database for DoD computer
                 intrusion investigations and facilitates coordination across DoD and with
                 the National Infrastructure Protection Center.

OTHER SECURITY   Several other security challenges confront the DoD. The Defense
CONCERNS         Personnel Security Program has not been able to provide adequate support
                 during the past few years to DoD organizations and contractors that need
                 security clearances. A backlog of several hundred thousand initial
                 investigations, reinvestigations, and adjudications is causing disruption
                 and increased risk in numerous programs. In reports and hearings, we
                 have warned that the DoD corrective action plan needs to be bolstered
                 with additional measures.

                 Updating the national export control laws and policies remains unfinished
                 business. We continue to recommend passage of a new Export
                 Administration Act. Meanwhile, the annual audits mandated by the
                 National Security Authorization Act for FY 2000 identified a range of
                 interagency and individual agency issues related to export control
                 licensing. In March 2001, we reported that DoD needs to do more to
                 review the Commerce Control List, reduce impediments to timely
                 decisions on applications, and update the list of protected military
                 technologies.

                 Force protection has become a major mission for the Military Criminal
                 Investigative Organizations, whose law enforcement efforts are closely
                 coordinated with the intelligence, counterintelligence, and security
                 communities. Terrorist threats against U.S. forces, citizens, and interests
                 pose major challenges.

                                       2
Semiannual Report to the Congress                                                           Chapter One




FINANCIAL                   The audits of year-end financial statements for fiscal year 2000 again
MANAGEMENT                  indicated the impossibility of compiling reliable financial reports for huge
                            funds and organizations in the absence of modern, integrated information
                            systems. The OIG, DoD, was able to issue a clean opinion for the Military
                            Retirement Fund and there was some progress for relatively small funds.
                            Disclaimers of opinion still were necessary, however, for the consolidated
                            DoD statements and virtually all major funds. In addition, DoD could
                            demonstrate little progress toward providing more useful financial
                            information to managers.

                            In previous reports and testimony, we repeatedly advised that audit
                            opinions on year-end financial statements are an inadequate metric for
                            evaluating and managing the DoD financial management improvement
                            effort. We also advised that the annual attempts to compile and audit
                            financial statements for an inordinately large number of separate funds
                            and without systems designed for such reporting have been futile and
                            costly. During the reporting period, for example, 61 of the 185 DoD
                            internal audit reports issued primarily addressed financial reporting. This
                            disproportionate coverage detracts from potentially more useful audit
                            support in other financial and non-financial areas. As the new
                            Administration and Congress consider ways to refocus and accelerate
                            DoD financial management improvement efforts, we are anxious to
                            cooperate in developing new approaches.

                            One recent initiative, which we strongly supported, was the formal
                            adoption of a Y2K-type systems management approach in January 2001
                            by the Under Secretary of Defense (Comptroller). In concert with further
                            efforts to make the DoD Financial Management Improvement Plan a
                            credible and explicit roadmap for managers, we believe that the discipline
                            of the Y2K-type methodology is long overdue in the financial systems
                            modernization effort.

ACQUISITION                 Despite nearly continuous acquisition reform efforts over 20 years, major
                            challenges remain in terms of matching programs to national strategy,
                            allocating resources, reducing acquisition lead time, controlling cost, and
                            ensuring adequate testing, quality, and supportability. In addition, a
                            consensus has emerged since our February 2000 report on the acquisition
                            workforce that the Department faces a compelling human capital problem.
                            For the acquisition corps, this involves the size and skills of the workforce
                            as well as the tools and training provided to them.

                            Audit reports during the period identified continued problems in
                            purchasing supplies and spare parts due to combinations of procurement

                                                   3
Chapter One                                                             Semiannual Report to the Congress




                                                                 personnel cuts, poorly designed
                                                                 purchasing systems, and inadequate
                                                                 oversight. To restore credibility to the
                                                                 DoD procurement process, the
                                                                 Department needs a more serious effort
                                                                 to avoid overpriced items, such as those
                                                                 we identified during the reporting period.
                                                                 Those included, for example, $409 sinks
                                                                 that should have cost $39, $2.10 screws
                                                                 worth $.48, and $.25 dust plugs worth
                                                                 $.03. Although these unit prices may
                                                                 seem too low to warrant concern, DoD
       Sinks that wholesale for $39; the Department paid $409.   purchases tens of millions of such items
                                                                 annually.

                                Other recent audits indicated problems on the other end of the acquisition
                                spectrum from spare parts and supplies. The DoD had 1,223 system
                                acquisition programs in place, with an estimated cost of $1.4 trillion.
                                Many of those programs were inadequately funded, which increases the
                                risk of inadequate developmental effort, inefficient production rates, and
                                insufficient emphasis on technical manuals, initial spares, and support
                                equipment.

                                The DoD is probably the largest purchaser of services in the world,
                                spending well over $50 billion annually for support ranging from
                                consultants to depot maintenance. Last year, we reported major
                                deficiencies in contracting for services by the Military Departments, so
                                that excessive costs were incurred and contract terms were often not
                                enforced. During the reporting period, we reported similarly widespread
                                problems at a major Defense agency. In January 2001, DoD set up a group
                                to address ways to improve, but the volume and diversity of contracting in
                                this area make it a particularly difficult challenge. We plan to audit
                                services contracting at additional Defense agencies in fiscal years 2001
                                and 2002.

                                A root cause of inefficiency in Defense acquisition, regardless of the
                                items or services being purchased, is the mismatch between workload and
                                staffing at most DoD buying organizations. (See Human Capital below.)
                                In addition, we believe that management controls and oversight are weak
                                in many areas, despite the often repeated assertion that the DoD
                                acquisition program is inefficient because of excessive oversight.
                                Perceptions that program management offices and contractors are overrun
                                by DoD auditors ignore the reality that only small percentages of DoD

                                                             4
Semiannual Report to the Congress                                                          Chapter One




                            programs, contracts, and transactions are ever audited. In addition, the
                            few hundred procurement fraud investigations conducted each year need
                            to be placed in the context of over 29,000 DoD prime contractors and 15
                            million procurement actions taken annually, resulting in tens of millions
                            of contract payments.

HEALTH CARE                 The Military Health System faces four major challenges: quality and
                            safety, cost containment, data integrity, and transitioning to managed care.

                            The quality and safety of health care provided to our active military
                            personnel, their families, and military retirees is by far the most critical
                            challenge facing the Military Health System. During the reporting period,
                            the OIG, DoD, reported on deficiencies in the frozen blood program that
                            was established to pre-position blood products during the initial stages of
                            a contingency operation or war until liquid products can be supplied from
                            the continental United States. We reported significant unresolved issues
                            between the DoD and the Food and Drug Administration.

                            Cost containment within the Military Health System is challenged by the
                            continued lack of good cost information combined with significant levels
                            of health care fraud. During the period, followup on OIG, DoD, reports
                            indicated that cooperative efforts to procure pharmaceutical procurements
                            by DoD and the Department of Veterans Affairs have saved $472 million.
                            Service audits indicated opportunities for more effective use of cost
                            management systems and modern training methods.

                            Data integrity in management information systems has been a persistent
                            problem that hampers the health care program. The lack of complete and
                            accurate data has resulted in an inability to clearly identify health care
                            costs, identify unit and individual readiness for deployment, and
                            coordinate direct health care with purchased health care.

                            Transitioning to managed care is a critical element in peacetime health
                            care delivery. TRICARE managed care contracts are complex instruments
                            that require considerable audit assistance. For 2000, the seven TRICARE
                            management contracts were valued at $3.5 billion. The Defense Contract
                            Audit Agency significantly expanded its audit coverage of TRICARE
                            contracts, which will help reduce risk.

                            Investigating health care fraud within the DoD Military Health System,
                            especially TRICARE, is a top priority for the Defense Criminal
                            Investigative Service, as evidenced by the millions of dollars in health


                                                  5
Chapter One                                                 Semiannual Report to the Congress




                   care settlements and sentences handed down during this reporting period.
                   (See Chapter Two.)

SUPPLY INVENTORY   Supply management to support U.S. military forces, which are located
MANAGEMENT         around the world and use thousands of different systems and millions of
                   different types of other equipment, spare parts, fuel, apparel, food items,
                   pharmaceuticals and other supplies, may be the most difficult logistics
                   challenge in the world. The Department spends more than $80 billion
                   annually on supply inventory management. Despite the clear need to
                   modernize DoD supply operations, it should be noted that U.S. military
                   logistics performance has been excellent in demanding situations such as
                   the Gulf War and the numerous recent deployments to comparatively
                   remote areas of the world.

                   Every facet of supply management involves challenges, and it is critically
                   important to recognize that weapon systems and other equipment must be
                   designed, selected, and procured with logistics support as a paramount
                   concern. The use of standardized parts, commercial items, non-hazardous
                   materials, and easy-to-maintain components will considerably ease the
                   supply support problem for each system or piece of equipment.
                   Conversely, inattention to such factors during the acquisition will increase
                   the risk of higher costs and logistical failures. The logistics community
                   relies heavily on program managers and operators to help forecast supply
                   requirements which, historically, has been very difficult. The Department
                   has been justifiably criticized for accumulating excessive supply
                   inventories; however, supply shortfalls are also as least as great a concern
                   because of their impact on readiness. Current logistics reform initiatives
                   are principally focused on introducing private sector logistics support
                   practices, which in turn are based on applying web-based technology. The
                   DoD has initiated a myriad of logistics improvement initiatives, most of
                   which are still in early stages. Although these are positive signs,
                   numerous recent audits indicated continuing valid concerns about all
                   phases of supply support including requirements determination,
                   procurement, distribution, and disposal.

OTHER              Despite numerous management initiatives to reduce support costs so that
INFRASTRUCTURE     more funds could be applied to recapitalizing and ensuring the readiness
ISSUES             of military forces, more can and should be done. The operations and
                   management funding levels today actually exceed the 1980’s levels. The
                   number of bases and other installations remains excessive, justifying at
                   least one more round of base closures and realignments. Organizations
                   throughout the Department need to continue reengineering their business
                   processes and striving for greater administrative efficiency.

                                         6
Semiannual Report to the Congress                                                          Chapter One




                            Cutting support costs can easily become counterproductive if the quality
                            of support services and facilities is degraded. In addition, there are
                            numerous genuine requirements in the support area that will be expensive
                            to address. For example, the average age of structures on military
                            installations is 41 years and wholesale recapitalization is needed. In the
                            category of family housing alone, clearly one-third of the 285,000 units
                            will require replacement in the next several years. The backlog of real
                            property maintenance is $27.2 billion. Three areas hold the most promise
                            for reducing installation level costs: base closures, public/private
                            competition for activities like base maintenance, and measures to avoid
                            hazardous material handling and clean-up costs through better up-front
                            planning. Unfortunately, progress in all three areas is difficult because of
                            controversy about the validity of data used by decision-makers or their
                            objectivity. Finally, DoD has one of the largest environmental restoration
                            programs in the world, and this area is particularly challenging in terms of
                            cost containment and compliance with continually evolving laws and
                            regulations.

READINESS                   Concern about the readiness of U.S. military forces was a principal issue
                            in congressional hearings and was addressed during the Presidential
                            election campaign. There is a broad consensus that readiness shortfalls
                            exist, although the extent of impairment to mission capability is more
                            contentious. There are concerns relating to recruiting, retention, and
                            morale; disproportionately numerous deployments for some units;
                            unanticipated high operating tempo; and equipment availability problems.
                            The DoD and Congress have made budget adjustments, and military
                            entitlements have been expanded. The Department’s readiness posture
                            ultimately depends, however, on the effectiveness of hundreds of support
                            programs, which range from training to supply management.

                            Audit reports during the period addressed slippage in the plan to have 10
                            National Guard Weapons of Mass Destruction Civil Support Teams
                            mission ready by January 2000; inaccurate reporting of the number of
                            Army tank training miles driven; medical readiness issues; problems in
                            maintaining reliable mobilization and deployment preparedness data; and
                            backlogged supply requests.

HUMAN CAPITAL               Like most Government organizations, DoD faces a range of serious
                            personnel management issues related to an aging workforce. Moreover,
                            the deep cuts in both the military force structure and the civilian
                            workforce after the end of the Cold War were not accompanied by
                            proportionate reductions in the number of military force deployments or
                            in civilian workload. On the contrary, military operating tempo has been

                                                  7
Chapter One                                                                       Semiannual Report to the Congress




                        very high, and there are indications of morale problems among both
                        military and civilian personnel. Among the negative effects of downsizing
                        are increased retention problems because of slow promotions and
                        overworked staffs, recruiting problems, and skills imbalances. A series of
                        audit reports has demonstrated the problems encountered across a wide
                        range of occupational specialties, programs, and organizations. Those
                        results demonstrate the need for decisions on any additional workforce
                        sizing to be underpinned by careful analysis of workload and realistic
                        productivity projections.

                        For example, one OIG, DoD, audit found that a 27 percent reduction in
                        acquisition personnel over 2 years at a Defense supply center resulted in
                        an increase in administrative lead-time for buyers to acquire parts and
                        supplies, an increase in backorders, and an increase in backlogged
                        purchase requests. The following chart demonstrates the deterioration of
                        customer service at that center.


                       P e rs o n n e l a n d W o rklo a d C ha n g e s fo r G en era l a n d I n d u s tria l Ite m s
              60.0%
                                                                                                48 .0 %
              50.0%                                                                                               40 .0 %
                                                            26.0%
              40.0%
              30.0%
                                                             26.0%
              20.0%
              10.0%                          3 .0 %
               0.0%
              -10.0%
                                                                                 -6 %
              -20.0%
              -30.0%
                           -2 7 .0 %
              -40.0%
                          A cquisition      D emands       A dministrative     S upp ly       Back o rd ers     P urchase
                          P erso nnel                        Lead Time       A vailab ility                     Req uests
                                                                                                                Backlog




                                                                      Figure 1




                        A properly sized, well trained, and highly motivated workforce is the best
                        defense against fraud, waste, and mismanagement. The effectiveness of
                        the workforce, both civilian and military, could be greatly enhanced by
                        better human capital planning. The DoD acquisition community has now
                        become a Government leader in terms of seeking and applying expanded
                        authority for more agile and responsive personnel management practices.
                        The rest of the Department faces similar problems and would benefit from
                        having greater flexibility too.


                                                       8
Semiannual Report to the Congress                                                         Chapter Two




CHAPTER TWO - SIGNIFICANT ACTIVITIES

INTRODUCTION                This chapter summarizes the significant activities of the Office of the
                            Inspector General (OIG) components and their work with other members
                            of the DoD oversight community.

CRIMINAL                    The four Defense Criminal Investigative Organizations continue to
INVESTIGATIONS              combat crime affecting the DoD. The Defense Criminal Investigative
                            Service of the OIG focuses primarily on procurement fraud, health care
                            fraud, and computer crimes. The three Military Department criminal
                            investigative organizations, the U.S. Army Criminal Investigation
                            Command, the Naval Criminal Investigative Service, and the Air Force
                            Office of Special Investigations, also investigate procurement fraud and
                            computer crime, but focus the majority of their resources on crimes
                            against persons and property affecting their respective Military
                            Departments, as well as force protection. The Air Force Office of Special
                            Investigations and Naval Criminal Investigative Service also conduct
                            counterintelligence investigations and operations.

                            Figures 2 and 3 (page 10) display the statistical results achieved by the
                            four investigative organizations during this period.

                            The following are examples of some of the more significant fraud cases
                            occurring during this semiannual period. In many instances, the Defense
                            Contract Audit Agency played a critical role in supplying needed audit
                            support.

 Product                    Counterfeit material and other forms of unauthorized substitution of
 Substitution               products into DoD inventories continue to be our highest priority for
                            deterrence, investigation, and prosecution. The following are examples of
                            product substitution cases.

                            Chickasaw Electrical Corporation, Dallas, Texas, and its president pled
                            guilty to mail fraud and conspiring to commit money laundering. In
                            addition to other offenses, unsuitable wire was substituted for use in the
                            Ellsworth Air Force Base electrical distribution system.

                            San Juan International, Incorporated, Trenton, New Jersey, a chemical
                            manufacturing company, knowingly provided faulty hydraulic fluid to the
                            Navy for use in the MK7 model 2 and 3 arresting gear drive systems. The
                            arresting gear systems are key mechanisms for the safe landing of aircraft
                            aboard Navy carriers. The hydraulic fluid is a critical component of the

                                                  9
Chapter Two                                                                    Semiannual Report to the Congress




               Ju d icial and A d m inistrative A ctio n s

              Convictions         76                     130


              Indictments             88                     122                   P rocurement/Health
                                                                                   Care F raud
                                 54                                                Other
              Debarments


              Suspensions        57

                            0         50    100          150         200     250




                                                    Figure 2




                                Monetary Recoveries
                                                   (Millions)



                                           0.94
              State/Local/Foreign


                    DoD                    9.1
              Admin/Investigative


                        DoJ Only                                     455.2


                                       0          100              200       300      400         500




                                                    Figure 3




                                                        10
Semiannual Report to the Congress                                                              Chapter Two




                                            arresting gear system and plays a crucial role in slowing
                                            down and ultimately stopping incoming aircraft.

                                                   Two vice presidents of Blue Jaunte Company, Incorporated,
                                                   formerly Plummer Precision Optics Company (Plummer),
                                                   pled guilty to one count each of conspiring to make false
                                                   statements. Plummer manufactured and shipped various
                                                   optic components used in the gunner’s primary sighting
                                                   system of the Abrams M1A1 tank and the Bradley Fighting
   An F/A-18 Hornet comes in for an arrested
                                                   Vehicle. In addition, Plummer lenses were critical
landing on the flight deck of the USS Kitty Hawk  components used in the Army’s Laser Village Program. For
                                                  approximately 10 years, the defendants conspired to submit
                                      false quality inspection reports that resulted in the shipment of
                                      nonconforming and defective parts.

                              A combined $1.23 million civil settlement was reached with several
                              companies for allegedly submitting false claims to the Army. O’Gara
                              Hess & Eisenhardt Armoring Company (O’Gara) allegedly provided
                              nonconforming armored vehicle shells to the Army under a $186 million
                              contract to armor-plate High Mobility Multipurpose Wheeled Vehicles.
                              Several of O’Gara’s suppliers allegedly did not produce parts in
                              accordance with the design requirements. Some of the parts produced by
                              suppliers were not welded by certified welders and did not conform to
                              requirements. Improper welding degrades the strength of the armor.
                              O’Gara also allegedly did not exercise adequate oversight of its
                              subcontractors, including performing the required audits and inspections.

                              Daniel Massey and Rhimco Industries (Rhimco), a Texas-based company
                              that manufactures electrical connectors, supplied untested critical
                              application aircraft parts to the DoD and commercial customers. Between
                              1992 and 1996, Rhimco electrical connectors provided for testing yielded
                              significant failures. In response to DoD inquiries, Massey falsely
                              represented that Rhimco parts were not subject to various testing
                              procedures.

 Medical Fraud                This was a hugely successful 6-month period in the effort to combat fraud
                              against TRICARE and other Government health care programs. The
                              following cases were jointly investigated by multiple Federal law
                              enforcement agencies and the recovered amounts will be apportioned
                              among the agencies whose programs were victimized, including DoD.

                              Lifescan, Incorporated (Lifescan), a subsidiary of Johnson & Johnson,
                              pled guilty to three misdemeanor charges and was sentenced to 3 years

                                                     11
Chapter Two                                                                  Semiannual Report to the Congress




                                               probation, a criminal fine of $29.4 million, and civil penalties,
                                               damages, attorneys’ fees, and restitution of $30.6 million. The
                                               misdemeanor charges dealt with submitting false and misleading
                                               reports and failing to furnish appropriate notifications to the Food
                                               and Drug Administration (FDA), and the introduction and
                                               delivering of an adulterated and misbranded medical device into
                                               interstate commerce. Lifescan’s SureStep brand blood glucose
                                               monitoring system was manufactured and distributed between
              Lifescan’s SureStep Kit          May 1996 and late 1997. The device had two defects that caused
                                               SureStep meters to display problematic readings. Lifescan
                                        admitted failing to describe these defects in its submissions for FDA
                                        clearance to market the SureStep family of blood glucose monitors, in
                                        addition to not notifying its customers of the defects.

                                        The Regents of the University of California entered into a $22.5 million
                                        settlement agreement with the Government. This follows a 5-year
                                        investigation into allegations that faculty physicians at three medical
                                        schools and medical centers improperly billed TRICARE and Medicare.
                                        The questionable billing pertained to services purportedly performed
                                        personally by faculty physicians, or under their direct supervision, when
                                        those services were actually performed by residents acting alone with
                                        little or no supervision. Under the Medicare and TRICARE programs, the
                                        Government already pays for a substantial portion of the residents’
                                        training and salaries. Their services cannot be billed to the Medicare or
                                        TRICARE programs on a fee-for-service basis.

                                        Quest Diagnostics, Incorporated, agreed to pay $13.1 million to settle
                                        claims that it improperly billed Government health care programs for
                                        services that were medically unnecessary. Quest Diagnostics,
                                        Incorporated, was formerly known as Nichols Institute Laboratories
                                        (Nichols). From January 1989 to December 1995, Nichols submitted
                                        claims for payment to Medicare, Medicaid, TRICARE, and the Federal
                                        Employees Health Benefits Program for unnecessary laboratory tests such
                                        as chemistry profiles for HDL cholesterol, LDL cholesterol, iron, hepatic,
                                        and ferritin.

                                                    The Healthcare Company, formerly known as Columbia/
                                                    HCA (HCA), and affiliated companies, the largest for profit
                                                    hospital chain in the United States, agreed to plead guilty to
                                                    one or more counts each of a variety of criminal conduct, and
                                                    will pay over $840 million in criminal fines and civil
                                                    penalties. The criminal conduct included false statements,
                                                    conspiracy, using false documents and writings, and paying
                                                          12
Semiannual Report to the Congress                                                          Chapter Two




                            and receiving kickbacks. In addition to the civil settlement, two HCA
                            subsidiaries pled guilty to numerous charges and were assessed a total of
                            $95.3 million in criminal fines and special assessment fees. Many of the
                            civil issues resolved in the global settlement agreement arose from a
                            lawsuit filed under the qui tam provision of the False Claims Act. Upon
                            final court approval of the civil agreement, HCA will pay to resolve a
                            series of allegations involving outpatient laboratory billing, diagnosis-
                            related groups upcoding, home health community education, home health
                            billing, and home health management fees.

                            The owner of Advanced Health Clinic, Mesa, Arizona, was sentenced to
                            105 months incarceration, 5 years probation, restitution of $0.8 million,
                            and a $4,700 special assessment fee. A jury found him guilty on 30 counts
                            of mail fraud, 8 counts of false claims, 6 counts of promotional money
                            laundering, 2 counts of false use of a Social Security Number, and 1 count
                            of false statements. Using his wife’s name and two alias names, he
                            submitted false claims to the TRICARE program and private insurers for
                            reimbursement of services he purportedly administered. In addition, he
                            falsely represented himself to be a medical doctor.

 Financial Crimes           Offenses considered to be Financial Crimes generally involve contract
                            mischarging or defrauding or abusing pay systems. The following
                            examples are some of the more significant financial fraud cases occurring
                            during this semiannual period.

                            A $4.5 million civil settlement agreement was reached between Research
                            and Development Laboratories, Incorporated (RDL), Culver City,
                            California, and the Government. The settlement resulted from an
                            investigation prompted by a qui tam suit filed by a former RDL employee
                            alleging that RDL overbilled the Air Force over a 4-year period on a
                            contract to place university professors and students in Air Force
                            laboratories to conduct research in the physical and biological sciences.

                            The General Services Administration awarded a contract to Gateway
                            2000, Incorporated, in 1994 for various computer systems. The United
                            States alleges that Gateway failed to comply with a contractually required
                            repricing provision, resulting in the sale of computers to various agencies,
                            including the DoD, at excessive prices. Gateway agreed to pay a $9
                            million civil settlement to the United States to resolve these issues.
                            Gateway also voluntarily reorganized its Government Business Unit to
                            ensure compliance on all present or future Government contracts.




                                                  13
Chapter Two                                                                  Semiannual Report to the Congress



                                     Electromechanical Systems, Incorporated (EMS), Largo, Florida, pled
                                     guilty to obstructing a Federal audit. EMS employees falsified basic labor
                                     costs related to the repair and refurbishment of Navy SPS-49 radar
                                     pedestals and corporate officials concealed the mischarging.

                                     Southern Emblem Company (SEC), Mount Airy, North Carolina, agreed
                                     to pay the Government a $300,000 civil settlement to resolve allegations
                                     that SEC failed to pay the appropriate U.S. Customs taxes on merchandise
                                     entering the United States. An investigation found evidence that SEC
                                     misled Government and commercial customers for years into believing
                                     embroidered cloth patches and emblems purchased from SEC were
                                     manufactured in the United States when they were produced overseas.

                                     A $450,000 civil settlement agreement was reached between Lockheed
                                     Martin Michoud Space Systems, New Orleans, Louisiana, and the U.S.
                                     Government. An investigation revealed evidence that the firm failed to
                                     fully report its use of Government-furnished equipment and facilities for
                                     commercial production of thermal protective products from 1988 to the
                                     present.

                                                            A qui tam suit filed against Northrop Grumman
                                                            Corporation (Northrop), Palmdale, California,
                                                            alleged that Northrop intentionally overestimated the
                                                            cost to purchase B-2 bomber instruction and repair
                                                            manuals from subcontractors. As a result, Northrop
                                                            defectively priced the manuals by failing to use
                                                            current pricing data and withheld data that showed
                                                            its cost estimates were inflated. Northrop agreed to
                                                            pay a $1.4 million civil settlement to the
                                                            Government to resolve the allegations. The relator
                                                            will receive 19 percent of the Government’s
      A U.S. Air Force B-2 Spirit stealth bomber refuels   settlement.
                from a KC-135 Stratotanker.

                                     Tri-Ad Constructors (Tri-Ad) submitted a claim for overhead costs and
                                     other expenses on a contract to repair water lines on Travis Air Force
                                     Base, California. When the claim was denied, the firm submitted an
                                     Equitable Adjustment for Cost Claim under the Contract Disputes Act of
                                     1978, seeking $2.2 million. The Government denied this claim, and Tri-
                                     Ad sued in the U.S. Court of Federal Claims. The trial court found that
                                     Tri-Ad violated the “Forfeiture of Fraudulent Claims” statute and ordered
                                     the entire claim forfeited. Tri-Ad was ordered to pay $1.5 million in
                                     damages and a $10,000 civil penalty.



                                                           14
  Semiannual Report to the Congress                                                          Chapter Two




Bribery and              Since the passing of the Anti-Kickback Act of 1986, the number of
Kickbacks                subcontractor kickback investigations has increased dramatically. The use
                         of informants and undercover operations has been particularly successful
                         in this area, especially in an undercover investigation of corruption within
                         the maritime industry.

                         The Navy contracts with ship management companies for the repair,
                         maintenance and operation of civilian-manned support ships. Bay Ship
                         Management, Incorporated (BSM), Englewood Cliffs, New Jersey, had
                         multiple contracts valued in excess of $200 million with the Military
                         Sealift Command (MSC) to provide management, personnel, operational
                                          and technical support to operate and maintain eight
                                          MSC ships. The undercover investigation found that
                                          several companies and their officials routinely paid
                                          kickbacks of money, goods, or services to BSM or port
                                          officials in exchange for shipyard contracts.

                                          Following their guilty pleas to paying or receiving
                                          kickbacks and related charges, two companies, Boston
                                          Ship Repair and Southern Sandblasting and Coatings,
                                          and five individuals, were sentenced to pay more than
                         $1.29 million in restitution, $775,000 in fines, and a $250,000 civil
                         settlement. Each individual will serve 12 or more months in prison,
                         followed by probation.

Antitrust and Bid        Price fixing, bid rigging and other typical antitrust violations continue to
Rigging                  increase DoD procurement costs. The following is an example of an
                         antitrust case settled during this semiannual period.

                         A $2 million settlement agreement was reached between the U.S.
                         Government and six freight forwarding companies of Seattle,
                         Washington. The six freight forwarders also agreed to permanently
                         terminate participation in the DoD program administered by the Military
                         Traffic Management Command, any other programs administered by
                         DoD, and/or by any other agency of the United States. The companies
                         allegedly made misrepresentations to the Military Traffic Management
                         Command about their common ownership by Pan American Products,
                         Incorporated, Seattle, Washington. Common control is prohibited to
                         prevent price manipulation and to prevent affiliated carriers and
                         forwarders from gaining an unfair competitive advantage over
                         independent carriers and forwarders. The investigation was initiated as a
                         result of a qui tam lawsuit.



                                                   15
Chapter Two                                                Semiannual Report to the Congress




 Computer Crimes   The potential for criminal activity in the cyber environment continues to
                   grow as DoD increases reliance on electronic commerce and processes.
                   The following are case examples of computer crime cases.

                   Investigators tracked down an originator of hacker attacks that appeared
                   to come from the Defense Logistics Agency Headquarters (DLA HQ)
                   computer system. Without damaging the actual DLA HQ system, hackers
                   used the DLA HQ firewall computer as a proxy service, which masked
                   their Internet addresses, to access computers within and outside of the
                   United States. The most serious known compromise was the crash of an
                   online service computer and website that required the full restoration of
                   the computer system. The hacker was arrested and pled guilty to
                   interfering with a DoD computer system, computer fraud, and
                   intercepting electronic communications.

                   Two teenagers were arrested and pled guilty to seven counts of illegal
                   computer activity. Information on the juveniles surfaced during a
                   California county sheriff investigation of the theft of Pacific Bell
                   telephone accounts and passwords. DoD investigators found that the teens
                   were members of a well-known computer hacker group responsible for
                   unauthorized penetrations of DoD computers.

                                 DoD computer crime “watchdogs” detected two major
                                 compromises of the Defense Information Systems Agency
                                 computer system. The intruder copied and transferred a
                                 highly sensitive password file and gained unauthorized
                                 access to the system. The Defense Information Systems
                                 Agency procurement system was shut down for 4 days
                                 following discovery of the intrusion to clean and secure the
                                 system and to remove files placed by the intruder that
                                 allowed unauthorized access. Investigators identified the
                                 intruder, a teenager in Texas, who confessed to the
                   unauthorized access. The court certified him as an adult and sentenced
                   him to probation, public service, and restitution.

 Technology        Technology transfer cases involve the illegal export or acquisition of
 Transfer          sensitive DoD technologies, weapons systems, parts and intellectual
                   properties. The following is an example of a technology transfer case.

                   A California couple was convicted on charges related to the attempted
                   illegal export of Defense articles on the U.S. Munitions List to the
                   People’s Republic of China. The couple purchased surplus/excess military
                   materials from various Defense Reutilization Marketing Offices on behalf

                                        16
Semiannual Report to the Congress                                                          Chapter Two




                            of their company. The items, including missile, aircraft, radar, and tank
                            parts, were exported to China without license or written authorization
                            from the U.S. State Department. Funds to purchase and export the
                            material were received via wire transfer from multiple locations,
                            including Taiwan, Indonesia, Hong Kong, and Singapore.

 Theft                      Theft of DoD material and munitions from the supply system and at the
                            base level has a direct effect on the readiness of the DoD. The following is
                            an example of a significant theft case.

                            Over a million rounds of small arms ammunition and other material were
                            stolen from Navy installations in Virginia. Two individuals pled guilty to
                            stealing or receiving those items. One individual was sentenced to 78
                            months in prison and ordered to pay $173,000 in restitution. The second
                            individual was sentenced to 24 months in prison and ordered to pay
                            restitution of $238,000.

 Environmental              The Defense Criminal Investigative Organizations continue to pursue
 Crimes                     allegations of fraud and abuse against the DoD environmental programs
                            as high priorities. The investigations in this area address matters such as
                            the removal, transport, and disposal of hazardous material from DoD
                            installations or contractors.

                            Special Devices, Incorporated (Special Devices), pled guilty in California
                            to three counts of violating Federal laws concerning treatment of
                            hazardous waste without a permit. The investigation resulted from a qui
                            tam suit filed by a former company employee. Special Devices
                            improperly transported and disposed of propellants and other hazardous
                            materials without the proper environmental safeguards and permits. The
                            company openly burned sensitive materials, such as C-4 explosives, lead
                            azide, lead styphnate, hydrazine, and other material.

                            D&J Enterprises, Incorporated (D&J), and its owners were convicted of
                            violations of environmental laws and the submission of false claims. The
                            investigation determined that D&J was not qualified to perform freon/
                            chlorofluorocarbon abatement. The company actually cut lines and
                            allowed these substances to bleed into the air while performing contracted
                            work.

ADMINISTRATIVE              The OIG, DoD, Departmental Inquiries Office conducts investigations and
INVESTIGATIONS              also performs oversight of investigations conducted by the Military
                            Departments. Those investigations pertain to:


                                                  17
Chapter Two                                                       Semiannual Report to the Congress




                             •   Allegations that military members were referred for mental
                                 health evaluations without being afforded the rights prescribed
                                 in the DoD Directive and Instruction pertaining to mental health
                                 evaluations of members of the armed forces.

                             •   Allegations of reprisal against military members, Defense
                                 contractor employees and nonappropriated fund employees.

                             •   Noncriminal allegations against senior military and civilian
                                 officials

 Referrals for Mental   Thirteen cases closed during the reporting period contained allegations of
 Health Evaluations     improper referrals for mental health evaluations. We did not substantiate
                        any mental health referrals that were used to reprise against Service
                        members for whistleblowing. However, we concluded that in 7 of the 13
                        cases, commanders failed to follow the proper procedures for referring a
                        Service member for a mental health evaluation under DoD Directive
                        6490.1, “Mental Health Evaluations of Members of the Armed Forces.”
                        We are working with the Department to find ways to improve the
                        knowledgeability of commanders regarding the Directive’s requirements.

 Whistleblower          During the reporting period, the Special Inquiries Directorate and the
 Reprisal Activity      Military Department Inspectors General received 232 complaints of
                        whistleblower reprisal. We closed 229 cases during this period. Of the 229
                        closed, 178 were closed after preliminary analysis determined further
                        investigation was not warranted, and 51 were closed after full investi-
                        gation. Of the 51 cases closed after full investigation, 5 (10 percent)
                        contained one or more substantiated allegations of whistleblower reprisal.

 Examples of            A Navy petty officer was reassigned to a different shift, causing his loss of
 Substantiated          supervisory duties, in reprisal for reporting an allegation of time and
 Whistleblower          attendance fraud by his immediate supervisor to the National Security
 Reprisal Cases         Agency Inspector General. In addition, the responsible management
                        official violated the provision of 10 U.S.C. 1034 that prohibits restricting
                        members from making protected communications to an Inspector
                        General. Corrective action is pending.

                        An Air Force enlisted member at Eglin Air Force Base, Florida, received
                        an unfavorable enlisted performance report from her supervisor in reprisal
                        for making allegations of racial discrimination and harassment to the
                        Military Equal Opportunity Office and her congressman. The supervisor
                        responsible for the reprisal action received a formal letter of reprimand.


                                              18
Semiannual Report to the Congress                                                          Chapter Two




                            A Navy senior enlisted member was reprised against by his commander
                            and the executive officer because he made a hotline complaint regarding
                            the commander’s decision in a mast case. The member received a lowered
                            fitness report and was denied an end of tour award. The commander was
                            counseled regarding the reprisal action. In addition, the Commander,
                            Naval Air Force, U.S. Pacific Fleet, issued a widely-distributed
                            memorandum on whistleblower protections, and the Commander in
                            Chief, U.S. Pacific Fleet, has undertaken a number of training initiatives
                            to prevent recurrence of whistleblower reprisal.

                            An Army Active Guard Reserve chief warrant officer was threatened with
                            a lowered officer evaluation report when he requested a commander’s
                            inquiry into a “relief for cause” noncommissioned officer evaluation
                            report (NCOER) rendered to an enlisted member. When the commander's
                            inquiry resulted in overturning the enlisted member's relief for cause
                            NCOER, the warrant officer received a lowered evaluation himself in
                            reprisal. Corrective action is pending.

 Senior Official            Figures 4 and 5 (page 20) show results of activity on senior official cases.
 Inquiries                  On March 31, 2001, there were 222 ongoing investigations into senior
                            official misconduct throughout the Department, a moderate reduction
                            from October 1, 2000, when we reported 253 open investigations. Over
                            the past 6 months, we closed 213 senior official cases, of which 38 (18
                            percent) contained substantiated allegations.

 Examples of Cases          In response to an incident that attracted significant media interest, we
 Involving Senior           investigated allegations that a senior Navy official attempted to cover up
 Officials                  and suppress allegations of improper conduct on the part of naval officers
                            attending the 44th annual "Tailhook" convention held in Nevada in
                            August 2000. We did not substantiate allegations of a cover-up. Rather,
                            we determined that efforts taken by the senior official to discuss the
                            complaint of improper conduct with affected individuals were reasonable.
                            However, we determined that the senior official failed to exercise sound
                            judgment by not reporting the incident and by not taking immediate action
                            to have the allegations thoroughly investigated.

                            In another investigation, we concluded that a senior Army official
                            violated DoD ethics regulations by using Government-owned laptop
                            computers, which were in his custody, for personal benefit. Although
                            DoD ethics regulations permit limited personal use of Government
                            equipment under certain conditions, we found that the personal use of the
                            laptops in this case was extensive and did not comply with other pertinent


                                                  19
Chapter Two                                                                               Semiannual Report to the Congress




              Nature of Substantiated Allegations Against Senior Officials
                                During 1st Half FY 01

                                      Deceptive                         Other
              Misuse Gov’t           Statements                       Misconduct
               Property/                 6%                              16%
                                                                                                              Abuse of
               Resources
                                                                                                             Authority/
                  28%                                                                                        Favoritism
                                                                                                                24%




                                          Improper Personnel                      Sexual Harassment/
                                               Action                                 Improper
                                                16%                                  Relationship
                                                                                         10%



                         Cases Closed: 213                                  Substantiated: 38

                                                      Figure 4



                                      DoD Total Senior Official Cases
                                             FY 98 - FY 01

                  500                                                       455
                                    432
                                                                                   402
                  400        357
                                                           369


                                                     300
                  300
                                                                                                       213
                  200                                                                            401


                                           94
                  100                                            66                      69
                                                                                                             38


                     0
                                   FY98                 FY99                      FY00         FY01 (1st half)

                                                Opened           Closed      Substantiated

                         This chart shows the total number of senior official investigations
                               conducted in the DoD over the past 3 1/2 fiscal years.

                                                      Figure 5



                                                       20
Semiannual Report to the Congress                                                         Chapter Two




                            criteria. The results of the investigation were provided to cognizant
                            management officials for consideration of corrective action.

                            Another investigation substantiated allegations that a senior Air Force
                            official failed to take appropriate action after receiving a complaint of
                            sexual harassment from a subordinate officer. Although the senior official
                            conducted an inquiry into the matter, we concluded that the inquiry was
                            inadequate and, because of that, follow-on corrective action was
                            insufficient. Further, we determined that the senior official provided
                            inaccurate and misleading testimony during our investigation. The results
                            of our investigation were provided to management officials for
                            consideration of corrective action.

CRIMINAL                    The Office of Criminal Investigative Policy and Oversight (CIPO) issued
INVESTIGATIVE               “Evaluation of Defense Criminal Investigative Organizations’ Policies
POLICY AND                  and Procedures for Investigating Allegations of Agent Misconduct.” The
OVERSIGHT                   evaluation determined that Defense Criminal Investigative Organization
                            policies and procedures to examine incidents of agent misconduct are
                            effective and consistent with benchmarked criteria. As a whole, actions
                            based on these investigations were equitable, and subjects of the
                            investigations were provided due process commensurate with the
                            proposed remedial action.

                            On March 2, 2001, the Deputy Inspector General established interim
                            policy requiring each Defense Criminal Investigative Organization to
                            establish processes whereby individuals or entities who have been titled in
                            criminal investigative reports or indexed in the Defense Clearance and
                            Investigations Index (DCII) may obtain a review of such decisions.
                            Formal coordination of the revised DoD Instruction 5505.7 is pending. In
                            process is the second phase of an Office of Criminal Investigative Policy
                            and Oversight project designed to assess compliance with the Directive by
                            criminal investigators outside of the traditional DoD investigative
                            community with respect to entering data in DCII as required, and whether
                            criminal investigative data contained in the DCII database is being
                            misused.

 Voluntary                  The Voluntary Disclosure Program encourages contractors to disclose
 Disclosure                 potential criminal or civil fraud that may affect their contractual
 Program                    relationship with the DoD or the contractor’s responsibility under the
                            Federal Acquisition Regulation. During this reporting period, the
                            Government recovered $553,000 under this Program. In addition, a
                            voluntary disclosure resulted in contract adjustments totaling $440,063. In


                                                  21
Chapter Two                                                 Semiannual Report to the Congress




                   this case, a defense subcontractor reported that a lower-tier subcontractor
                   submitted alleged false claims.

AUDITING           The OIG, DoD, and Military Department central audit organizations
                   issued 186 reports during the reporting period, identifying nearly $1.78
                   billion in quantifiable monetary benefits and assisting the Department’s
                   efforts to address the high risk areas discussed in Chapter One. Appendix
                   A lists internal audit reports by major subject area. Appendices B and C
                   list OIG, DoD, reports with potential monetary benefits and statistically
                   summarize internal audit followup activity, respectively.

                   The Defense Contract Audit Agency issued 17,549 contract audit reports
                   in response to the needs of its customers, DoD contracting officers. Those
                   reports questioned $485.8 million in costs, as summarized in Appendix D.

 Significant       The DoD has a tradition of recognizing the importance of audit as a
 Open Audit        management tool. Although individual reports and findings can be highly
 Recommendations   contentious, the Department’s resolution procedures for both internal and
                   contract audits have generally worked well for over 20 years. Many
                   agreed-upon corrective actions are complicated and cannot be completed
                   quickly, so large numbers of agreed-upon but incomplete actions are
                   being tracked in DoD audit followup systems. Although managers
                   generally implement agreed-upon recommendations within reasonable
                   time frames, the slow pace of some actions merits concern. DoD policy
                   making is a chronically slow process in general, and implementing
                   agreed-upon changes to directives and regulations often takes several
                   years. Likewise, developing new automated systems or making corrective
                   modifications to systems often are frustratingly long processes. To be a
                   more agile and effective organization, the Department needs to find ways
                   to be less bureaucratic and more efficient in both of those areas.

                   Among the open actions being tracked for audit followup are the
                   following:

                        •   1994 and 1995 recommendations for periodic testing and better
                            preventative maintenance of chemical protective masks—a
                            followup audit is planned for fiscal year 2002 to verify that
                            adequate actions have been taken.

                        •   1996 recommendations for the Defense Finance and Accounting
                            Service to reduce the backlog of contract financial records
                            needing reconciliation and correction—although the backlog has


                                         22
Semiannual Report to the Congress                                                         Chapter Two




                                        been reduced from about 15,000 to 10,000, this remains
                                        unacceptably high.

                                    •   1997 recommendations to address the removal of hazardous
                                        munitions residue from training and test ranges.

                                    •   1998 recommendations to address problems created by
                                        conflicting requirements for use of the radio frequency
                                        spectrum—although DoD has vigorously addressed many
                                        aspects of this serious problem, specific system acquisition
                                        guidance is still pending.

                                    •   1999 recommendations to apply the Y2K systems compliance
                                        process to the financial systems problems as discussed in
                                        Chapter One—the Department issued procedures in January
                                        2001, but follow through is uncertain.

 OIG, DoD,                  The full texts of the written testimony for these hearings are available at
 Testimony                  www.dodig.osd.mil.

                            On February 12, 2001, the Deputy Inspector General testified before the
                            Senate Budget Committee in a hearing on "The National Defense Budget
                            in the New Century." His testimony discussed the Office of Inspector
                            General's assessment of the major management challenges confronting
                            the Department of Defense. Those areas were: (1) information technology
                            management, especially acquiring new systems; (2) information system
                            security; (3) other security concerns; (4) financial management; (5)
                            acquisition of weapons, supplies, and services; (6) peacetime health care;
                            (7) supply inventory management; (8) other infrastructure issues; (9)
                            readiness; and (10) human capital management.

                            The Deputy Inspector General testified on March 2, 2001, before the
                            House Government Reform Subcommittee on National Security, Veterans
                            Affairs and International Relations on problems facing the Department of
                            Defense Personnel Security Program. His testimony discussed recent
                            audits and evaluations of the Defense Security Service by the OIG, DoD.
                            The Department has had mixed success in its efforts to reduce the backlog
                            of pending security clearance investigations, reinvestigations, and
                            adjudications. The Deputy Inspector General noted that cuts in staffing
                            have not been matched by proportional reductions in workload. Efforts to
                            increase productivity have been hampered by the lack of adequate
                            information systems to track cases. The Defense Security Service goal of


                                                   23
Chapter Two                                             Semiannual Report to the Congress




               eliminating the backlog of security investigations by September 30, 2002,
               remains at risk.

               On March 15, 2001, the Deputy Inspector General testified on the major
               management challenges facing the Department of Defense at a hearing
               before the House Government Reform Subcommittee on National
               Security, Veterans Affairs and International Relations. His testimony was
               similar to the February 12, 2001, testimony before the Senate Budget
               Committee. While noting that serious problems persist within the
               Department, he testified that, on the whole, DoD managers react
               positively and generally do their best to correct the problems identified by
               the OIG, DoD, and that some progress is evident in all areas.

               On March 29, 2001, the Deputy Inspector General testified at a joint
               hearing of the Senate Governmental Affairs Subcommittee on Oversight
               of Government Management and the House Government Reform
               Subcommittee on Civil Service and Agency Organization. The subject of
               the hearing was "The National Security Implications of the Human
               Capital Crisis." His testimony centered on several recent audit reports on
               Defense programs with workforce problems. A common theme among
               these reports is that workforce downsizing, without proportionate
               workload reductions or productivity increases, has created or exacerbated
               mission performance problems across a wide spectrum of DoD
               organizations and civilian personnel specialties. Workforce problems
               confronting the Department include determining the most efficient mix of
               outsourced versus in-house workload; determining appropriate workforce
               size and skills composition; authorizing and funding sufficient positions
               to match workload; recruiting and retaining capable personnel; providing
               effective training; and maintaining good morale.

INTELLIGENCE   See the Classified Annex to this report for intelligence review activities
REVIEW         during the period.




                                     24
Semiannual Report to the Congress                                                                Appendix A


                         APPENDIX A*
  REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS

   Excludes base level reports issued by the Air Force Audit Agency. Includes evaluation reports issued
   by the OIG, DoD.

   Copies of reports may be obtained from the appropriate issuing office by calling:

              OIG, DoD                                 Army Audit Agency
              (703) 604-8937                           (703) 681-9863

              Naval Audit Service                      Air Force Audit Agency
              (202) 433-5737                           (703) 696-8027



                       Summary of Number of Reports by Issue Area
                           October 1, 2000 - March 31, 2001

                                           OIG, DoD          Military Depts.                 Total
  Acquisition Program                         11                        7                         18
  Construction and Installation                5                        1                          6
  Support
  Contractor Oversight                        11                        6                         17
  Environment                                  4                        4                          8
  Finance and Accounting                      27                      34                          61
  Health Care and Morale                       3                      12                          15
  Information Technology                      15                        5                         20
  Intelligence**                               4                        7                         11
  Logistics                                    5                      20                          25
  Other                                        4                        2                          6
  Total**                                     89                      98                         187
  The OIG, DoD, also issued 4 reports on audit oversight reviews (D2001-6-001, D2001-6-002, D2001-6-003,
   and D2001-6-004).



  * Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(6).
  ** For further information on intelligence-related reports, including those issued by other Defense
  agencies, refer to the classified annex to this report.




                                                    A-1
Appendix A                                                            Semiannual Report to the Congress


                                  D-2001-093 Acquisition of the          D-2001-006 Bulk Fuel Storage
ACQUISITION                       Battlefield Combat                     Requirements for Maintenance,
PROGRAM                           Identification System (3/30/01)        Repair, and Environmental
                                                                         Projects at Fort Hood, Texas
                                  Army Audit Agency                      (10/23/00)
(Includes issues relating to
acquisition management.)          AA01-023 Simulation Based
                                                                         D-2001-027 Navy Management
                                  Acquisition Program (11/8/00)
                                                                         Controls Over General and Flag
IG, DoD                                                                  Officer Quarters Costs
                                  AA01-065 New Equipment
D-2001-012 Acquisition of the     Testing (12/18/00)                     (12/26/00)
Armored Medical Evacuation
Vehicle (11/22/00)                AA01-128 Integrated System             D-2001-040 Bulk Fuel
                                  Control (12/15/00)                     Infrastructure Maintenance,
D-2001-032 Use of Exit Criteria                                          Repair, and Environmental
for Major Defense Systems         AA01-133 Joint Contingency             Project Review Process: Pacific
(1/10/01)                         Force Advanced Warfighting             (1/30/01)
                                  Experiment (1/29/01)
D-2001-036 Acquisition of the                                            D-2001-080 Government
Combat Survivor Evader            AA01-221   225th Army                  Performance and Results Act
Locator (1/25/01)                 Birthday/Spirit of America             Goals: Disposal of Excess Real
                                  (3/26/01)                              Property (3/15/01)
D-2001-043 Management of
National Guard Weapons of         Naval Audit Service                    Naval Audit Service
Mass Destruction-Civil Support                                           N2001-0006 Military
Teams (1/31/01)                   N2001-0018 Total Ownership
                                  Cost-Reduction Plans (3/20/01)         Construction, Navy Projects
                                                                         Proposed for Fiscal Year 2002
D-2001-047 Equipment                                                     (12/18/00)
Procurement for the National      Air Force Audit Agency
Guard and Reserve Forces          01064010 Memorandum Report,
(2/7/01)                          Airborne Laser Test Program
                                  Direct Labor Hour Charges
                                                                         CONTRACTING
D-2001-066 Acquisition of the     (11/21/00)                             OVERSIGHT
Advanced Tank Armament
System (2/28/01)
                                                                         (Includes issues relating to
D-2001-076 Acquisition of         CONSTRUCTION                           contract administration and
General and Industrial Items      AND INSTALLATION                       oversight, commercial activities,
(3/13/01)                                                                and product quality assurance.)
                                  SUPPORT
D-2001-082 Management of the                                             IG, DoD
Commercial Operations and         (Includes construction and all         D-2001-001 Contract Award for
Support Savings Initiative        activities related to maintenance      the Fluid Flow Restrictor Spare
Program (3/19/01)                 and support of installations.)         Part (10/3/00)
D-2001-086 On-Board Jammers       IG, DoD                                D-2001-023 Implementation of
for the Integrated Defensive                                             Most Efficient Organization for
                                  D-2001-003 Bulk Fuel Storage
Electronic Countermeasures                                               the Defense Finance and
                                  and Delivery Systems Infra-
(3/20/01)                                                                Accounting Service Commis-
                                  structure Military Construction
                                  Requirements for Japan                 sary Vendor Payment Function
D-2001-089 Management Issues                                             (12/20/00)
at the Joint Simulation System    (10/13/00)
Program Office (3/30/01)




                                                 A-2
Semiannual Report to the Congress                                                           Appendix A


D-2001-028 Compliance With          AA01-111 Contracts for             Air Force Audit Agency
Procurement Laws in                 Maintenance of Tactical
                                                                       00052012 Environmental
Purchasing Free Weights and         Equipment in the Field (1/31/01)
                                                                       Restoration Contingent
Other Strength Building
                                    AA01-159 Linen Services            Liabilities at Closed
Equipment (12/27/00)
                                    Contract (1/29/01)                 Installations (2/27/01)
D-2001-051 Use of Federal
                                    AA01-169 Best Practices for        00052018 Clean Water Act
Acquisition Regulation Part 12
                                    Using Award Fees (2/20/01)         Reporting and Budgeting
Contracts for Applied Research
                                                                       (3/5/01)
(2/15/01)
                                    Air Force Audit Agency
D-2001-054 Defense Logistics        00061024 Memorandum Report,
Agency Product Verification         Contract Warranty Data
                                                                       FINANCE AND
Program (2/21/01)                   (12/14/00)                         ACCOUNTING
D-2001-061 Waivers of
Requirement for Contractors to                                         (Includes finance and
Provide Cost or Pricing Data        ENVIRONMENT                        accounting issues, including all
(2/28/01)                                                              issues relating to the Chief
                                    (Includes environmental issues     Financial Officers (CFO) Act.)
D-2001-069 Pilot Program on         related to cleanup, compliance,
Sales of Manufactured Articles      conservation, pollution            IG, DoD
and Services of Army Industrial     prevention, technology, safety,    D-2001-011 Prior Period
Facilities (3/1/01)                 and health.)                       Adjustment to Remove National
&ÂCpugxÂPuyqÂ        IG, DoD
                                                                       Defense Property, Plant, and
                                                                       Equipment From the DoD
VqpÂPsgyÂgÂtqÂHggxÂ
                                    D-2001-009 DoD Compliance          Agency-Wide Balance Sheet
5uguÂ8qÂ   −ÂHtÂCxgpÂ                                      (11/16/00)
!#
                                    With Hazardous Waste Laws in
                                    the U.S. European Command
                                    (11/14/00)                         D-2001-021 Government
D-2001-077 Buying Program of                                           Performance and Results Act
the Standard Automated                                                 Reporting on Defense Working
Materiel Management System          D-2001-010 The Navy
                                    Shipboard Pollution Control        Capital Funds Net Operating
Automated Small Purchase                                               Results (1/10/01)
System: Defense Supply Center       Equipment Program (11/14/00)
Philadelphia (3/13/01)                                                 D-2001-022 Inventory
                                    D-2001-025 Summary Report
                                    on DoD Hazardous Waste             Revaluation for the Navy
D-2001-084 Service Contracts                                           Working Capital Fund by the
at the National Security Agency     Disposal Costs (12/22/00)
                                                                       Naval Supply Systems
(CLASSIFIED) (3/22/01)                                                 Command (12/18/00)
                                    D-2001-087 Defense Logistics
D-2001-090 Obligations and          Agency Wastewater Treatment
                                    Systems (3/26/01)                  D-2001-024 Performance
Duplicate Payments on Air                                              Measures for Disbursing
Force Maintenance Contract                                             Stations (12/22/00)
                                    Army Audit Agency
FA2550-96-C-0003 (3/30/01)
                                    AA01-001 Matrix Support            D-2001-026 Accuracy of the
Army Audit Agency                   Requirements for the Chemical      Government-Owned Contractor-
AA01-037 Contracts for              Demilitarization Program           Occupied Real Property in the
Maintenance of Tactical Equip-      (10/2/00)                          Military Departments’ Real
ment in the Field (11/3/00)                                            Property Databases (12/22/00)
                                    Naval Audit Service
AA01-052 Contracts for              N2001-0019 Naval Wastewater        D-2001-033 Government
Maintenance of Tactical Equip-      Treatment Systems (3/27/01)        Performance and Results Act –
ment in the Field (11/9/00)                                            Unfunded Depot Maintenance
                                                                       Requirements (1/12/01)


                                                  A-3
Appendix A                                                          Semiannual Report to the Congress


D-2001-039 Financial Reporting    D-2001-060 Internal Controls         D-2001-078 Inventory Valuation
of Department 97-Funded           and Compliance With Laws and         at the Defense Supply Center
Property, Plant, and Equipment    Regulations for the FY 2000          Columbus (3/14/01)
(1/31/01)                         Financial Statements for Other
                                  Defense Organizations-General        D-2001-079 Inventory Valuation
D-2001-041 Journal Entries to     Funds (2/28/01)                      at the Defense Supply Center
Support Departmental Reporting                                         Richmond (3/14/01)
for the Marine Corps (1/31/01)    D-2001-062 Inspector General,
                                  DoD, Oversight of the Air Force      D-2001-081 Financial Reporting
D-2001-042 Accounting and         Audit Agency Audit of the FY         at the Washington Headquarters
Disclosing Intragovernmental      2000 Air Force Working Capital       Services (3/15/01)
Transactions on the DoD           Fund Financial Statements
Agency-Wide Financial             (2/28/01)                            D-2001-085 The 2000 DoD
Statements (1/31/01)                                                   Financial Management
                                  D-2001-063 Inspector General,        Improvement Plan (3/19/01)
D-2001-048 Financial Reporting    DoD, Oversight of the Army
for Other Defense Organizations   Audit Agency Audit of the FY         Army Audit Agency
at the Defense Agency Financial   2000 Army Working Capital            AA01-039 Followup Issues--
Services Accounting Office        Fund Financial Statement Audit       Army Working Capital Fund FY
(2/9/01)                          (2/28/01)                            99 Financial Statements
                                                                       (10/20/00)
D-2001-049 Abnormal General       D-2001-064 Inspector General,
Ledger Account Balances for       DoD, Oversight of the Army           AA01-053 Reliability, Maintain-
Other Defense Organizations       Audit Agency Audit of the            ability and Supportability
Reported by DFAS Cleveland        Army’s General Fund Principal        Efficiency (12/1/00)
Center (2/13/01)                  Financial Statements for Fiscal
                                  Year 2000 (2/28/01)                  AA01-055 Army Executive
D-2001-053 DoD Payments to                                             Dining Facility Fund Financial
the U.S. Treasury for Water and   D-2001-067 Inspector General,        Statements (11/20/00)
Sewer Services Provided by the    DoD, Oversight of the Army
District of Columbia (2/15/01)    Audit Agency Audit of the FY         AA01-083 Internal Controls
                                  2000 U.S. Army Corps of              Over Inventory (1/5/01)
D-2001-056 Inspector General,     Engineers, Civil Works
DoD, Oversight of the Naval       Program, Financial Statements        AA01-087 One Semi-
Audit Service Audit of the        (2/28/01)                            Automated Forces (12/1/00)
FY 2000 Department of the
Navy General Fund Financial       D-2001-068 Inspector General,        AA01-092 Secretary of Defense
Statements (2/21/01)              DoD, Oversight of the Audit of       Mess Fund Financial Statements
                                  the FY 2000 Military Retire-         (11/20/00)
D-2001-057 Inspector General,     ment Fund Financial Statements
DoD, Oversight of the Naval       (2/28/01)                            AA01-121 Financial
Audit Service Audit of the                                             Management of the Kinetic
FY 2000 Department of the         D-2001-070 Internal Controls         Energy Anti-Satellite Program
Navy Working Capital Fund         and Compliance With Laws and         (12/20/00)
Financial Statements (2/21/01)    Regulations for the DoD
                                  Agency-Wide Financial                AA01-131 Financial
D-2001-058 Inspector General,     Statements for FY 2000               Management of the Chemical
DoD, Oversight of the Air Force   (2/28/01)                            Demilitarization Program
Audit Agency Audit of the FY                                           (1/4/01)
2000 Air Force General Fund       D-2001-071 Navy Financial
Financial Statements (2/21/01)    Reporting of Government              AA01-166 Army’s General
                                  Materials Held by Commercial         Fund Principal Financial
                                  Shipyard Contractors (3/2/01)        Statements for Fiscal Year 2000-
                                                                       Financial Reporting of Military
                                                                       Pay and Benefits (1/31/01)



                                                A-4
Semiannual Report to the Congress                                                          Appendix A


AA01-170 Army’s General             N2001-0016 Department of the      99053005 Accounting for Air
Fund Principal Financial            Navy Principal Statements for     Force Liabilities, Fiscal Year
Statements for Fiscal Year 2000-    Fiscal Year 2000: Inventory and   1999 (10/27/00)
Summary Audit Report                Related Property, Net (2/27/01)
(2/7/01)                                                              99054027 Review of Controls in
                                    N2001-0017 Fiscal Year 2000       the Command Online
AA01-174 Army’s General             Department of the Navy General    Accounting and Reporting
Fund Principal Financial            Fund Principal Statements: Fund   System (11/1/00)
Statements for Fiscal Year--2000    Balance with Treasury Suspense
Controls Over the Financial         Account Reconciliations and       99054032 Interim Automated
Reporting of Construction in        Adjustments (3/20/01)             Travel System Post-Payment
Progress Costs for the Army                                           Review Process 1/18/01)
National Guard (2/26/01)            Air Force Audit Agency
                                    00051012 Nonappropriated
AA01-175 Army Working
                                    Fund Financial Analyst Program    HEALTH CARE AND
Capital Fund Principal Financial
Statements for Fiscal Year 2000-
                                    (2/26/01)                         MORALE ISSUES
Summary Audit Report                00052001 Real Property
(2/9/01)                            Maintenance Activities            (Includes health care issues such
                                    Accounting Practices (12/26/00)   as military treatment facilities
AA01-187 Fiscal Year 2000                                             and champus and morale issues
Financial Statements (2/14/01)      00052015 Reimbursable             such as commissaries,
                                    Expenses at Two Closing and       nonappropriated funds, human
Naval Audit Service                                                   resource management, and
                                    Realigning Bases (1/31/01)
N2001-0005 Proposed Fiscal                                            compensation issues.)
Year 2000 Annual Statement of       00053002 Opinion on Fiscal
Assurance (11/14/00)                Year 2000 Air Force Consoli-      IG, DoD
                                    dated Financial Statements        D-2001-005 Use of Unpaid
N2001-0010 Fiscal Year 2000         (3/1/01)                          Consultants by the DoD
Naval Shipyard Financial                                              Exchange Services (10/16/00)
Accounting Performed by             00053011 Revenue and Other
Defense Finance and                 Financing Sources - Fiscal Year   D-2001-037 Collection and
Accounting Service Norfolk          1999 Obligations (12/5/00)        Reporting of Patient Safety Data
(2/6/01)                                                              Within the Military Health
                                    00054008 Official Representa-     System (1/29/01)
N2001-0011 Department of the        tion Funds (10/26/00)
Navy Principal Statements for                                         D-2001-059 Armed Services
Fiscal Year 2000: Environ-          00054012 Tri-Annual Review        Blood Program Readiness
mental Liabilities (2/6/01)         Process for Unliquidated          (2/23/01)
                                    Obligations (2/14/01)
N2001-0012 Fiscal Year 2000                                           Army Audit Agency
Department of the Navy General      00054020 Travel Pay Controls
Fund Principal Statements           (12/6/00)                         AA01-077 Morale, Welfare and
(2/07/01)                                                             Recreation Acquisition Practices
                                    00068004 Opinion on Fiscal        (11/29/00)
N2001-0013 Fiscal Year 2000         Year 2000 Air Force Working
Department of the Navy              Capital Fund Financial            AA01-108 Civilian Personnel
Working Capital Fund Principal      Statements (3/1/01)               Regionalization (2/12/01)
Statements (2/7/01)                                                   AA01-157 Recruiter
                                    99053004 Managerial Cost
N2001-0015 Department of the        Accounting - Fiscal Year 1999     Productivity (2/12/01)
Navy Working Capital Fund           Disbursements (12/11/00)
                                                                      AA01-178 The Army Lodging
Accounts Receivable, Federal                                          Success Program (2/26/01)
and Non-Federal for Fiscal Year
1999 (2/26/01)


                                                  A-5
Appendix A                                                           Semiannual Report to the Congress


AA01-201 Nonappropriated          D-2001-015 Defense Environ-           D-2001-052 Controls Over the
Fund Payroll (3/9/01)             mental Security Corporate             Defense Joint Military Pay
                                  Information Management                System (FOR OFFICIAL USE
AA01-215 Medical Decision         Program (12/7/00)                     ONLY) (2/15/01)
Support Systems, (3/15/01)
                                  D-2001-016 Security Controls          D-2001-055 General Controls
Naval Audit Service               Over Contractor Support for           for the Defense Civilian Pay
N2001-0001 Naval Surface          Year 2000 Renovation                  System (FOR OFFICIAL USE
Reserve Training (10/6/00)        (12/12/00)                            ONLY) (2/21/01)

N2001-0003 Naval Reserve          D-2001-017 Unclassified but           D-2001-075 Standard Procure-
Recruiting Functions (10/30/00)   Sensitive Internet Protocol           ment System Use and User
                                  Router Network Security Policy        Satisfaction (3/13/01)
N2001-0007 Increasing Navy’s      (12/12/00)
Likelihood of Achieving Fiscal                                          Air Force Audit Agency
Year 2001 Recruiting Goals        D-2001-019 Program
                                                                        00066005 Memorandum Report,
(12/18/00)                        Management of the Defense
                                                                        Web Page Management in the
                                  Security Service Case Control
                                                                        Air National Guard (1/23/01)
Air Force Audit Agency            Management System (12/15/00)
00051016 Medical Training                                               01066011 Followup
                                  D-2001-029 General Controls
Infrastructure (10/23/00)                                               Memorandum Report,
                                  Over the Electronic Document
                                                                        Information Assurance -
                                  Access System (12/27/00)
00051006 Slot Machine                                                   Implementing Controls Over
Program (1/12/01)                 D-2001-030 Oversight of               Known Vulnerabilities in Air
                                  Defense Finance and                   Force Space Command
00054028 Memorandum Report,       Accounting Service Corporate          Computers (1/12/01)
Essential Product Program         Database Development
(12/12/00)                                                              99058021 Cellular Telephone
                                  (12/28/00)
                                                                        Management (10/25/00)
                                  D-2001-034 Army Healthcare
                                                                        99066038 Web Page
INFORMATION                       Enterprise Management System
                                                                        Management (FOR OFFICIAL
TECHNOLOGY                        (1/16/01)
                                                                        USE ONLY) (11/8/00)
RESOURCES                         D-2001-038 Allegations
                                                                        99066041 Controls Over Air
                                  Relating to the Procurement of a
                                                                        Force Composite Health Care
(Includes automated systems;      Report Module for the
                                                                        Systems (12/13/00)
                                  Composite Health Care System
information technology
                                  II (1/29/01)
resources; and command,
control and communications        D-2001-044 Accreditation              INTELLIGENCE
(c3) systems.)                    Policies and Information
                                  Technology Controls at the            (Includes intelligence and
IG, DoD                           Defense Enterprise Computing          security matters.)
D-2001-013 DoD Compliance         Center Mechanicsburg (FOR
With the Information Assurance    OFFICIAL USE ONLY)                    IG, DoD
Vulnerability Alert Policy        (2/9/01)
                                                                        D-2001-007 Foreign National
(12/1/00)                         D-2001-046 Information                Security Controls at DoD
                                  Assurance at Central Design           Research Laboratories
D-2001-014 Development and                                              (10/27/00)
Implementation of a Joint         Activities(2/7/01)
Ammunition System (12/6/00)                                             D-2001-008 Resources of DoD
                                                                        Adjudication Facilities
                                                                        (10/30/00)



                                                A-6
Semiannual Report to the Congress                                                           Appendix A


D-2001-065 DoD Adjudication         IG, DoD                             AA01-110 Institutional Training
of Contractor Security                                                  of Reserve Component Soldiers
                                    D-2001-002 Defense Logistics
Clearances Granted by the                                               to Meet Qualification Goals
                                    Agency Customer Returns
Defense Security Service                                                (12/27/00)
                                    Improvement Initiative Program
(2/28/01)
                                    (10/12/00)                          AA01-129 Reusing and
D-2001-084 Service Contracts                                            Disposing of Missile Munitions
                                    D-2001-004 Disposal of Excess
at the National Security Agency                                         Phase I (1/22/01)
                                    Government-Owned Property in
(CLASSIFIED) (3/22/01)
                                    the Possession of Contractors       Naval Audit Service
Naval Audit Service                 (10/13/00)
                                                                        N2001-0002 Nine-Week
N2001-0004 Program C                D-2001-031 DoD Pilot                Maintenance Availability Policy
(CLASSIFIED) (11/16/00)             Programs for Shipment of            for Surface Ships in the Pacific
                                    Personal Property – DoD             Fleet (10/10/00)
Army Audit Agency                   Baseline Cost Methodology
                                    (12/29/00)                          N2001-0008 Audit Followup on
AA01-002 Secure Environment
                                                                        Management, Control, and
Contracting (10/25/00)
                                    D-2001-035 Management of            Accounting Procedures for
AA01-066 Secure Environment         Potentially Inactive Items at the   Sponsor Material at Naval Sea
Contracting (12/7/00)               Defense Logistics Agency            Systems Command Warfare
                                    (1/24/01)                           Centers (1/10/01)
AA01-165 Army Foreign
Language Program--                  D-2001-045 Government               N2001-0009 General Purpose
Outsourcing (1/31/01)               Performance and Results Act         and Research Vessel
                                    Goals: Tank Miles (2/7/01)          Requirements (1/31/01)
Air Force Audit Agency
                                    Army Audit Agency                   Air Force Audit Agency
00058005 Air Force Intelligence
Production Process (1/30/01)        AA01-025 Management of              00058001 Maintenance of Time-
                                    Ammunition in Support of            Phased Force and Deployment
00058012 Cryptologic Equip-         Army Pre-Positioned Sets in         Data Files (11/23/00)
ment Requirements and               Europe (FOR OFFICIAL USE
Financial Management                ONLY) (10/23/00)                    00058002 Air National Guard
(12/29/00)                                                              Flying Hour Program (11/13/00)
                                    AA01-036 Sustainment Systems
01058006 Intelligence               Technical Support (11/3/00)         00058007 Medical Unit
Contingency Funds - Fiscal Year                                         Readiness Reporting (12/21/00)
2000 (2/9/01)                       AA01-047 Management of
                                    Ammunition in Support of            99062001 Foreign Military
(See classified annex to this       Army Pre-Positioned Sets            Sales Travel Requirements
report for additional               (11/7/00)                           (1/29/01)
information.)
                                    AA01-048 Ammunition Supply          00061006 F117-PW-100 Spare
                                    Point (11/9/00)                     Engine Requirements (2/9/01)
LOGISTICS                           AA01-080 Use of Rail Cars for       00061020 Followup Audit,
                                    Transporting Equipment to           Asset Shipments Outside of
(Includes issues relating to        Combat Training Centers             Supply Control (2/9/01)
supply systems; transportation      (11/30/00)
including fuels; maintenance of                                         00062005 Flying Hour
weapon systems; foreign             AA01-093 Management of              Projections Used in Computing
military sales; foreign military    Training Ammunition (12/7/00)       Spares Requirements (1/16/01)
financing; and international
                                                                        99061010 Spare Parts Data
military education and training.)
                                                                        System Inventory Accuracy
                                                                        (3/28/01)


                                                   A-7
Appendix A                                                       Semiannual Report to the Congress


99062007 Use and Control of     Army Audit Agency                   D-2001-6-002 Report on
Military Interdepartmental                                          Quality Control Review of
                                AA01-171 Trainees, Transients,
Purchase Requests (12/11/00)                                        Grant Thornton, LLP, for Office
                                Holdees, and Students Account
                                                                    of Management and Budget
                                (2/23/01)
                                                                    Circular A-133 Audit Report of
OTHER                           Naval Audit Service                 Concurrent Technologies
                                                                    Corporation Fiscal Year Ended
                                N2001-0014 Quality Assurance        June 30, 1998 (2/23/01)
IG, DoD                         Review of the Local Audit
                                Function at the Naval Special       D-2001-6-003 Defense Contract
D-2001-018 Management and       Warfare Command (2/26/01)           Audit Agency’s Role in
Oversight of the DoD Weather                                        Integrated Product Teams
Program (12/14/00)                                                  (3/23/01)
D-2001-074 Cooperative Threat   AUDIT OVERSIGHT
                                                                    D-2001-6-004 Report on
Reduction Program (3/9/01)      REVIEWS                             Quality Control Review of
                                                                    PricewaterhouseCoopers, LLP
D-2001-088 DoD Involvement
                                                                    and Defense Contract Audit
in the Review and Revision of   IG, DoD                             Agency for Office of
the Commerce Control List and
                                D-2001-6-001 Report on              Management and Budget
the U.S. Munitions List
                                Quality Control Review of           Circular A-133 Audit Report of
(3/23/01)
                                Arthur Andersen, LLP, for OMB       Massachusetts Institute of
D-2001-092 Interagency          Circular No. A-133 Audit            Technology, Fiscal Year Ended
Review of the Commerce          Report of the Henry M. Jackson      June 30, 1999 (3/22/01)
Control List and the U.S.       Foundation for the Advance-
Munitions List (3/23/01)        ment of Military Medicine,
                                Fiscal Year Ended
                                September 30, 1998 (2/2/01)




                                             A-8
Semiannual Report to the Congress                                                            Appendix B


                            APPENDIX B*
      INSPECTOR GENERAL, DoD, AUDIT REPORTS ISSUED CONTAINING
             QUANTIFIABLE POTENTIAL MONETARY BENEFITS



                                                                       Potential Monetary Benefits

                                                                       Disallowed      Funds Put to
                  Audit Reports Issued                                   Costs1         Better Use

 D-2001-001 Contract Award for the Fluid Flow Restrictor                     N/A           $805,000
 Spare Part (10/3/00)
 D-2001-012 Acquisition of the Armored Medical                               N/A           6,311,000
 Evacuation Vehicle (11/22/00)
 D-2001-014 Development and Implementation of a Joint                        N/A          70,700,000
 Ammunition System (12/6/00)
 D-2001-015 Defense Environmental Security Corporate                         N/A          57,700,000
 Information Management Program (12/7/00)
 D-2001-035 Management of Potentially Inactive Items at                      N/A          17,200,000
 the Defense Logistics Agency (1/24/01)
 D-2001-066 Acquisition of the Advanced Tank Armament                        N/A          62,900,000
 System (2/28/01)
 D-2001-072 Industrial Prime Vendor Program at the Naval                     N/A            572,000
 Aviation Depot - North Island (3/5/01)
 D-2001-075 Standard Procurement System Use and User                         N/A           2,100,000
 Satisfaction (3/13/01)
 D-2001-077 Buying Program of the Standard Automated                         N/A           7,200,000
 Materiel Management System Automated Small Purchase
 System: Defense Supply Center Philadelphia (3/13/01)
 D-2001-078 Inventory Valuation at the Defense Supply                        N/A           2,000,000
 Center Columbus (3/14/01)
 D-2001-079 Inventory Valuation at the Defense Supply                        N/A           9,500,000
 Center Richmond (3/14/01)
 Totals                                                                       0         $236,988,000
 *Fulfills the requirement of 5 U.S.C., Appendix 3, Section 5(a)(6)
 1
  There were no OIG audit reports during the period involving disallowed costs.




                                                       B-1
Semiannual Report to the Congress                                                                     Appendix C


                                            APPENDIX C*
                                        FOLLOWUP ACTIVITIES



        DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
           RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1
                               ($ in thousands)

                                                                                                  Funds Put
                                   Status                                          Number          to Better
                                                                                                      Use
 A.    For which no management decision had been made by the                             31         $367,300
       beginning of the reporting period.
 B.    Which were issued during the reporting period.                                    88          236,988
       Subtotals (A+B)                                                                  119          604,288
 C.    For which a management decision was made during the reporting                     79          520,016
       period.
          (i)    dollar value of recommendations that were agreed to by
                 management
                   - based on proposed management action                                               15,500
                   - based on proposed legislative action                                                      0
          (ii)   dollar value of recommendations that were not agreed to                             504,516
                 by management2
 D.    For which no management decision has been made by the end of                      40            84,272
       the reporting period.

       Reports for which no management decision was made within 6                             0                0
       months of issue (as of March 31, 2001).
 1There
         were no OIG audit reports during the period involving questioned costs.
 2On  four audit reports with a total of potential funds put to better use of $433.5 million, management has
  agreed to take the recommended actions, but the amount of agreed monetary benefits cannot be determined
  until those actions are completed.




 *Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(8)(9) and Section 5(b)(2)(3).


                                                       C-1
Appendix C                                                                  Semiannual Report to the Congress




                 STATUS OF ACTION ON CENTRAL INTERNAL AUDITS1
                                ($ in thousands)

                                                                        Number of             Funds Put to
                      Status of Action
                                                                         Reports               Better Use
 IG, DoD
       Action in Progress - Beginning of Period                                   304               $160,986
       Action Initiated - During Period                                             79                 15,500
       Action Completed - During Period                                             77               433,956

       Action in Progress - End of Period 2                                       306                156,730

 Military Departments

       Action in Progress - Beginning of Period 3                                 429             $4,724,489

       Action Initiated - During Period                                           108              1,137,831
       Action Completed - During Period                                           124                898,611
       Action in Progress - End of Period                                         413              3,014,600
 1There were no audit reports during the period involving questioned costs.
 2On  certain reports (primarily from prior periods) with audit estimated monetary benefits of $800 million,
  we agreed that the resulting monetary benefits can only be estimated after completion of management
  action, which is ongoing.
 3Reflects downward adjustment of $87.3 million from Navy total for amount agreed-to in prior period.




                                                       C-2
Semiannual Report to the Congress                                                                      Appendix D


                                        APPENDIX D
                              CONTRACT AUDIT REPORTS ISSUED*
                                       ($ in millions)



                                      Reports                                    Audit             Funds Put to
        Type of Audit                                      Examined
                                      Issued                                   Exceptions           Better Use1

   Incurred Costs 2                       12,233              $41,948.7              $457.6               $126.3

   Forward Pricing                          3,895               54,613.3                   --             1,378.7
   Proposals
   Cost Accounting                          1,165                   90.0                15.2                   --
   Standards

   Defective Pricing 3                        251                      --               13.0                   --

   Other 4                                       5                     --                  --                  --

   Totals                                 17,549              $96.652.0              $485.8             $1,505.0
   1Potential
              cost avoidance.
   2
    Incurred cost funds put to better use are from the cost avoidance recommended in economy and efficiency
    audits of contractor operations.
   3Defective pricing dollars examined are not reported because they are considered a duplication of forward

    pricing dollars reported as examined.
   4Relates to suspected irregular conduct cases.



       *Because of limited time between availability of management information system data and legislative
        reporting requirements, there is minimal opportunity for the DCAA to verify the accuracy of reported
        data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.




                   Waivers of Advisory and Assistance Service Contracts

        A review is made of each waiver granted by the Department for advisory and
        assistance services contracts related to testing support. This review is required by
        Section 802, Defense Authorization Act for Fiscal Year 1990.

        The Department made no waivers during the period and therefore, no reviews were
        made by the OIG.




                                                        D-1
                0LVVLRQ 6WDWHPHQW
   7KH 'HSDUWPHQW RI 'HIHQVH ,QVSHFWRU *HQHUDO SURPRWHV
QDWLRQDO VHFXULW\ DQG LQWHJULW\ DQG FUHGLELOLW\ LQ *RYHUQPHQW
       E\ FRQGXFWLQJ REMHFWLYH DQG LQGHSHQGHQW DXGLWV
 LQYHVWLJDWLRQV HYDOXDWLRQV DQG RWKHU DFWLYLWLHV WR SUHYHQW
 GHWHFW DQG KHOS FRUUHFW SUREOHPV LQ 'R' SURJUDPV DQG WR
      LGHQWLI\ RSSRUWXQLWLHV IRU LPSURYLQJ HIILFLHQF\ DQG
                         HIIHFWLYHQHVV
